         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Quick Reaction Report



       EPA Should Revise its
       Grant Accrual Methodology
       to Address Impact of
       Recovery Act Funds
       Report No. 09-X-0217

       August 19, 2009
Report Contributors:                          Paul Curtis
                                              Meg Hiatt




Abbreviations

ARRA         American Recovery and Reinvestment Act
EPA          U.S. Environmental Protection Agency
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General
OMB          Office of Management and Budget
                       U.S. Environmental Protection Agency 	                                               09-X-0217
                                                                                                       August 19, 2009
                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment


Why We Did This Review            EPA Should Revise its Grant Accrual Methodology
                                  to Address Impact of Recovery Act Funds
The Office of Inspector
General (OIG) of the
                                   What We Found
U.S. Environmental Protection
Agency (EPA) has concerns
                                  EPA’s grant accruals for the Fiscal Year 2009 financial statements may not include
with the impact the American
                                  adjustments for additional funds received under the ARRA. EPA has historically
Recovery and Reinvestment
                                  computed grant accruals based on the results of a grantee billing practice survey.
Act (ARRA) of 2009 will
                                  The survey documents grantees’ billing practices, the cumulative effect of which is
have on EPA’s grant accrual
                                  used to calculate accrual percentages. Once the grant accrual percentages are
calculation for the Fiscal Year
                                  calculated, they are applied to current year grantee expenditures paid to calculate
2009 financial statements. We
                                  EPA’s liability for grantee expenditures incurred but not yet billed to EPA.
are alerting EPA management
of our concerns.
                                  EPA currently plans to combine ARRA grants with traditional grants and use the
Background                        combined universe as the basis for its grant accrual calculation. Traditional grants
                                  have longer periods of performance than grants with ARRA funds. Only
In February 2009, EPA was         51 percent of the grant funds have been expended on traditional grants over the
provided with $7.2 billion        past 5 years. ARRA funds are intended to be used faster than traditional grant
under the ARRA for projects       awards. Consequently, the results of the sample will be skewed because the
and programs administered by      billing practices for ARRA grants will be different than EPA’s traditional grants
EPA. The funds were to be         and not representative of all grants, including ARRA grants. This could misstate
awarded to grantees               the financial statements regarding grant expenditures incurred but not billed.
expeditiously. Grant accruals
in the financial statements        What We Recommend
represent grantee costs
incurred but not billed.          We recommend that the Chief Financial Officer modify the current grant accrual
                                  methodology to account for the increase in and nature of grant expenditures due to
                                  the ARRA. The revised methodology should separate the two distinct types of
                                  grants – ARRA and EPA’s traditional grants. EPA should use its historical
                                  method for computing the accrual for traditional grants and develop a separate
                                  process for the ARRA grants that will consider the intent to expeditiously award
                                  and expend ARRA funds. The separate methodology could include amounts
                                  reported by recipients on the total amount of funds received and the amount spent
For further information,          on projects and activities, as required by Office of Management and Budget
contact our Office of             (OMB) Memorandum M09-21, Implementing Guidance for the Reports on Use of
Congressional, Public Affairs     Funds Pursuant to the American Recovery and Reinvestment Act of 2009.
and Management at
(202) 566-2391.
                                  The Office of the Chief Financial Officer (OCFO) agreed with OIG’s
To view the full report,          recommendations for the Fiscal Year 2009 grant accruals. OCFO will analyze the
click on the following link:      difference between the grantee’s reported expense and EPA records and determine
www.epa.gov/oig/reports/2009/     the grant accrual amount for ARRA funds. OCFO is considering other methods
20090819-09-X-0217.pdf
                                  for calculating the grant accrual rate for ARRA funds in the event the required
                                  OMB reports are not available.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL



                                         August 19, 2009

MEMORANDUM

SUBJECT:              Quick Reaction Report:
                      EPA Should Revise its Grant Accrual Methodology
                      to Address Impact of Recovery Act Funds
                      Report No. 09-X-0217


FROM:                 Paul C. Curtis
                      Director Financial Statement Audits

TO:                   Maryann Froehlich
                      Acting Chief Financial Officer

This is our report on the concerns the Office of Inspector General (OIG) of the U.S.
Environmental Protection Agency (EPA) has with the impact of the American Recovery and
Reinvestment Act (ARRA) of 2009 on EPA’s grant accrual methodology. This review was not
an audit conducted in accordance with Government Auditing Standards. We conducted our
review from February 20 to July 15, 2009, during which time we evaluated EPA’s methodology
for calculating grant accruals to determine whether ARRA grants would necessitate a change to
how EPA calculates grant accruals for the Fiscal Year 2009 financial statements. Grant accruals
in the financial statements represent the costs incurred but not yet paid.

This report contains findings that describe the problems the OIG has identified and corrective
actions the OIG recommends. This report represents the opinion of the OIG and does not
necessarily represent the final EPA position. Final determinations on matters in this report will
be made by EPA managers in accordance with established audit resolution procedures.
No written response to this draft is required.

In Fiscal Year 2008, EPA reported grant accruals totaling $414 million, or 52 percent of EPA’s
total Accounts Payables and Accrued Liabilities. Such an amount is material to EPA’s financial
statements. EPA has historically computed grant accruals based on the results of the grantee
billing practice surveys. The survey results are used to calculate accrual percentages by grantee.
The percentages are then applied to total estimated expenditures to produce the accrual. EPA
currently plans to combine the ARRA grants with EPA’s traditional grants and use the combined
universe for computing grant accruals for Fiscal Year 2009. Office of Management and Budget


                                                 1

                                                                                                 09-X-0217


(OMB) Bulletin 09-02, Budget Execution of the American Recovery and Reinvestment Act of
2009, states in part that Agencies are to take expeditious actions to spend money. EPA’s
expenditures for grants over the past 5 years have been approximately 51 percent of open grant
obligations. By combining the grants and using the same methodology for ARRA funds, which
are intended to be spent expeditiously, the accrual for Fiscal Year 2009 could be materially
impacted. Because the grant accrual is a significant number on EPA’s financial statements, such
an impact could materially misstate the financial statements.

The ARRA includes $7.2 billion for projects and programs administered by EPA. These
programs, which will protect and promote green jobs and a healthier environment, include:

Table 1: Programs Receiving ARRA Funds
 Program                 Purpose                                                                    Amount
 Clean Water and         For assistance to help communities with water quality and                  $6 billion
 Drinking Water          wastewater infrastructure needs ($4 billion) and with drinking water
 State Revolving Funds   infrastructure needs ($2 billion)
 Brownfields             For competitive grants to evaluate and clean up former industrial and   $100 million
                         commercial sites
 Diesel Emissions        For grants and loans for projects to reduce diesel emissions            $300 million
 Reduction
 Superfund Hazardous     For clean-up of hazardous sites                                         $600 million
 Waste Clean-up
 Leaking Underground     For clean-up of petroleum leaks from underground storage tanks          $200 million
 Storage Tanks
Source: EPA Website

The Act and OMB’s guidance require agencies to spend the funds quickly in order to stimulate the
economy. According to OMB Bulletin 09-02, agencies are to take expeditious actions to spend
money while maintaining due diligence to ensure that funds are not wasted. Appropriation
language stipulates that funds will remain available for obligation until September 30, 2010.
ARRA section 1602 requires that “recipients shall give preference to activities that can be started
and completed expeditiously, including a goal of using at least 50 percent of the funds for
activities that can be initiated not later than 120 days after … enactment” of the Act. The Act was
enacted on February 17, 2009. For the State Revolving Funds, the law requires that the work “be
under contract or construction” within 12 months.

EPA’s expenditures for grants over the past 5 years have been approximately 51 percent of funds
obligated during the same 5 years. Since ARRA funds are to be awarded and expended quickly,
the amount of EPA’s expenditures should dramatically increase. Such an increase would impact
the basis used for grant accruals because EPA uses expenditures as the basis for the calculation.

OMB Circular A-136, Financial Reporting Requirements, states that “Financial statements shall
recognize probable and measurable future outflows or other sacrifices of resources arising from
(1) past exchange transactions, (2) government-related events, (3) government-acknowledged
events, or (4) non-exchange transactions that, according to current law and applicable policy, are
unpaid amounts due as of the reporting date.” The Statement of Federal Financial Accounting
Standards No. 5, Accounting for Liabilities of the Federal Government, describes the general
principles governing the recognition of a liability, including the requirement to record accruals.


                                                       2

                                                                                             09-X-0217


EPA has historically computed grant accruals based on the results of the grantee billing practice
surveys. Once the grant accrual percentages are calculated, they are applied to current year
expenditures to date to project future expenditures. Because the percentages are based on the
historical spending patterns of grantees prior to the ARRA, the effect of the newer ARRA
expenditures would not be included in the percentages.

EPA currently does not plan to revise the historical methodology, and will pull a sample
consisting of all grantees, combining traditional grants with ARRA grants. By combining the
traditional grants with ARRA grants and using the same methodology, the grant accrual could be
distorted due to the effect of the newer ARRA grants that are intended to be expended more
quickly. By separating the types of grants into two universes, EPA could develop a more
accurate accrual based on the nature of the grants awarded. The traditional grant accrual
methodology could be used for traditional grants. EPA should develop a different methodology
that will take into account the expeditious expenditure of ARRA funds.

Recommendation

   1.	 We recommend that the Chief Financial Officer separate the ARRA grants from
       traditional grants in developing the 2009 grant accrual. EPA should use its traditional
       grant accrual methodology for traditional grants, and develop a separate methodology for
       ARRA funds that considers the intent to expend such funds expeditiously. The separate
       methodology could include amounts reported by recipients on the total amount of funds
       received and the amount spent on projects and activities, as required by OMB Memorandum
       M09-21, Implementing Guidance for the Reports on Use of Funds Pursuant to the
       American Recovery and Reinvestment Act of 2009.

Agency Response and OIG Evaluation

The Office of the Chief Financial Officer (OCFO) agrees with the OIG’s recommendations for
the Fiscal Year 2009 grant accruals. OCFO is utilizing the traditional methodology for
non-ARRA grants and grantees. This process will not deviate from prior years. In regard to
ARRA grants, OMB has directed all grant recipients to report their year-to-date spending by
September 30, 2009. OCFO will analyze the difference between the grantee’s reported expense
and EPA records and determine the grant accrual amount for ARRA funds. OCFO is currently
considering other methods for calculating the grant accrual rate for ARRA funds in the event the
required OMB reports are not available. We concur with the Agency’s response.

If you or your staff have any questions regarding this report, please contact Paul Curtis at
(202) 566-2523 or curtis.paul@epa.gov, or Meg Hiatt at (513) 487-2366 or
hiatt.margaret@epa.gov. The estimated cost of this report – calculated by multiplying the
project’s staff days by the applicable daily full cost billing rates in effect at the time – is $10,298.




                                                   3

                                                                                                                                      09-X-0217



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed To
    No.      No.                         Subject                          Status1       Action Official           Date      Amount      Amount

     1        3     Separate the ARRA grants from traditional grants        O        Chief Financial Officer
                    in developing the 2009 grant accrual. EPA should
                    use its traditional grant accrual methodology for
                    traditional grants, and develop a separate
                    methodology for ARRA funds that considers the
                    intent to expend such funds expeditiously. The
                    separate methodology could include amounts
                    reported by recipients on the total amount of funds
                    received and the amount spent on projects and
                    activities, as required by OMB Memorandum
                    M09-21, Implementing Guidance for the Reports on
                    Use of Funds Pursuant to the American Recovery
                    and Reinvestment Act of 2009.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                4

                                                                                           09-X-0217


                                                                                       Appendix A

      FY 2008 Methodology for Automated Posting of 

             Quarterly Grant Accrual Entries 

1)	 Grant accruals are calculated using accrual rates established annually through grantee billing
    practices surveys. The ratios are revised for the year-end accruals and then used for the first
    three quarters of the next fiscal year.

2)	 There are different accrual rates calculated for Superfund (Treasury Symbol 68-20X8145)
    and all other EPA appropriations (Treasury Symbols).

3)	 For Fiscal Year 2008 the grant accrual percentage was 9.33 percent for Superfund and All
    Other.

4)	 In the automated accrual process, the ratios are applied to grant disbursements made during
    the last 12 months.

   a)	 Disbursements for the last 12 months are summarized by the Servicing Finance Office,
       Budget Fiscal Year, fund, object class (Budget Object Class), Budget Organization,
       Program Results Code, and Site/Project.

   b) Next step is the appropriate accrual rate is applied to generate the Standard Voucher 17
      expense transactions. The Standard Voucher 17 transactions should have an automated
      reversal on the first day of the last month of the next quarter (e.g., first quarter accruals
      reversal date March 1, second quarter June 1, third quarter September 1).

   c)	 The Standard Voucher 17 transactions are created after the nightly cycle (generally the
       last weekend of the reporting period) and process automatically at the end of the next
       business day.

5) Office of Financial Management/Reporting and Analysis Staff compares calculated accruals
   to unliquidated obligations and notifies the finance offices of any modifications to Standard
   Vouchers that need to be processed in the Suspense Table before the Standard Vouchers post
   to the general ledger.

6) Research Triangle Park-Finance Center provides Office of Financial Management/Reporting
   and Analysis Staff with a report on Standard Voucher rejects. Office of Financial
   Management/Reporting and Analysis Staff notifies the finance offices of any rejected
   Standard Voucher that requires correction and processing.



Source: EPA Office of the Chief Financial Officer




                                                 5

                                                                                         09-X-0217


                                                                                  Appendix B

                                     Distribution
Office of the Administrator
Acting Chief Financial Officer
Acting Deputy Chief Financial Officer
Acting Director, Office of Financial Management, Office of the Chief Financial Officer
Deputy, Office of Financial Management, Office of the Chief Financial Officer
Director, Reporting and Analysis Staff, Office of the Chief Financial Officer
Acting Director, Office of Financial Services, Office of the Chief Financial Officer
Director, Las Vegas Finance Center
General Counsel
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of the Chief Financial Officer
Acting Inspector General




                                               6

